APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Opinion of
The Court of Appeals of Maryland
entered April 2, 2019 ..................................... 1a
Opinion of
The Court of Special Appeals of Maryland
entered March 5, 2018 ................................. 42a
U.S. CONST. amend. I .............................................. 68a
U.S. CONST. amend. V ............................................ 69a
U.S. CONST. amend. VI ........................................... 70a
U.S. CONST. amend. XIV ........................................ 71a
28 U.S.C. § 1257...................................................... 73a
34 U.S.C. § 20341.................................................... 74a
Md. Code, Family Law, § 5-705.............................. 82a
Md. Code, Courts and
Judicial Procedure, § 9-105 .................................... 85a

1a
[ENTERED: April 2, 2019]
Circuit Court for Worcester County
Case No.: 23-K-15-000516
Argued: October 4, 2018
IN THE COURT OF APPEALS OF MARYLAND
No. 20
September Term, 2018
STATE OF MARYLAND
v.
KEVIN SEWELL

Barbera, C.J.
Greene
*Adkins
McDonald
Watts
Hotten
Getty,
JJ.
Opinion by Adkins, J.
Hotten, J., dissents.

Filed: April 2, 2019

2a
*Adkins, J., now retired, participated in the hearing
and conference of this case while an active member
of this Court; after being recalled pursuant to the
Md. Constitution, Article IV, Section 3A, she also
participated in the decision and adoption of this
opinion.
It is a fundamental rule of law
that the public has a right to every
persons’ evidence. There are a small
number of constitutional, common-law
and statutory exceptions to that general
rule, but they have been neither “lightly
created nor expansively construed, for
they are in derogation of the search for
truth.”
Ashford v. State, 147 Md. App. 1, 63 (2002) (Moylan,
J.) (emphasis removed) (quoting In re Cueto, 554
F.2d 14, 15 (2d Cir. 1977)). These exceptions are
commonly known as privileges. This case asks us to
balance the search for truth against one of
the strongest privileges—confidential marital
communications.
We weigh the introduction of evidence that
tends to implicate child abuse against the protection
of the confidential marital communications privilege.
In so doing, we resolve the two questions presented:
(1) whether this Court should adopt a principle of
narrow construction with respect to the marital
communications privilege, and (2) whether the trial
court properly exercised its discretion by allowing
the State to introduce text messages that Kevin
Sewell sent to his wife’s cell phone. As to the first

3a
question, we agree with the State that courts should
narrowly construe privileges, including the marital
communications privilege. As to the second, we
affirm the trial court’s decision to admit the text
messages, although we diverge from its rationale.
BACKGROUND
Factual Overview and Procedural Posture
Three-year-old Luke Hill lived with his
mother, Victoria Harmon, and her fiancé, Nick
Miller, in Keller, Virginia. Luke was a happy,
healthy little boy who enjoyed running around,
playing outside, and driving his toy Jeep. In late
April, Luke went to his pediatrician for a wellness
check, and the doctor told his mother that he was
“perfectly fine.” Approximately one week later,
Luke’s mother and Nick left Luke in the care of
Amanda and Kevin Sewell (“Amanda” and “Kevin,”
respectively), his aunt and uncle, so that they could
enjoy a night out. They arrived at Amanda and
Kevin’s house in Pocomoke City, Maryland around
3:00 p.m. and visited for a short time, during which
Luke and his cousin were running, playing, and
wrestling. When Victoria and Nick departed for
Salisbury, Kevin was holding Luke.
Kevin played with the boys until around 5:00
p.m. They all ate eggs and bacon for dinner, and
afterward, Amanda gave Luke a bath. She testified
that during Luke’s bath, she noticed, for the first
time, that he had “[a] lot” of bruises, including
bruising behind his ears, down his neck, on his chest,
arms, and legs. He also had black eyes and a knot on

4a
his head. Amanda testified that she called Victoria
and told her about the bruises behind his ears and
that Luke was not feeling well.
Amanda woke up around 5:00 a.m. on Sunday
morning, May 3, to get ready for her shift at a nearby
restaurant. Luke and his cousin woke shortly
thereafter, and Amanda made them breakfast. She
departed for work around 6:45 a.m., leaving the
children in Kevin’s care.
Beginning around 9:00 a.m., Amanda and
Kevin sent a series of text messages to each other. 1
[AMANDA 9:07:22 a.m.]: Everything
ok?
[KEVIN 9:14:15]: Ye boo
[KEVIN 9:14:28]: He doesn’t listen
worth shit but were fine
[KEVIN 9:14:49]: I think tori told me he
[breaks] out from grass
[KEVIN 9:15:02]: I wonder if thats why
his neck n chest are broke out
[AMANDA 9:15:48]: His ear is bruised
[KEVIN 9:16:34]: Yeah, it sure [is]
Some messages have been edited for ease of reading or
confidentiality. Substitutions are indicated by brackets. All
other text messages appear as they were upon being entered
into evidence.

1

5a
[KEVIN 9:16:47]: [Maybe] him and
[Son] were rough housing
[AMANDA 9:33:14]: He’s very [skittish]
[KEVIN 9:40:58]: Yeah, he is I’ve
noticed
[KEVIN 9:41:00]: Why, tho
[KEVIN 9:47:55]: He threw up on our
sheets
[KEVIN 9:48:24]: [Daughter] was
sleeping n he started [screaming] so I
[made] him lay down
[KEVIN 9:48:32]: Then he threw up on
our bed
[AMANDA 9:53:43]: Nice.
[AMANDA 9:54:23]: Strip the bed and
put [what] u can in the washer please
[KEVIN 10:02:27]: Ok
[AMANDA 10:12:49]: Thank u how are
u
[KEVIN 10:13:07]: Good boo boo
[AMANDA 10:32:39]: U going with me
to take him[ home]

6a
[AMANDA 10:41:48]: ?
[AMANDA 11:20:32]: ?
[KEVIN 11:44:12]: I thought u were
taking him tomorrow
[KEVIN 12:05:59 p.m.]: [What] time u
getting off?
[AMANDA 12:32:19]: Today
[AMANDA 12:32:27]: 1:30
[KEVIN 12:35:39]: Ok
[KEVIN 12:35:53]: Thats fine because
he’s acting like a fucking asshole
[KEVIN 12:36:20]: He ignores u like hes
retarded hes thrown up twice n all he
does is whine
[KEVIN 12:36:28]: This is the [last]
time
[KEVIN 12:37:21]: The other thing I
have been entertained by is him
running around saying butt fuck. He
starts clapping n looking for high fives
[AMANDA 12:51:54]: Wtf
[AMANDA 12:53:25]: U going to do the
yard while I’m gone?

7a
[AMANDA 12:59:49]: ?
[KEVIN 1:13:57]: Idk [maybe]
[KEVIN 1:14:10]: This has been a day
from hell Hes [finally] asleep on our
room
[KEVIN 1:14:28]: Please get me a bottle
this has been a day from hell
[KEVIN 1:25:00]: Please
[AMANDA 1:31:43]: Ok
[AMANDA 1:32:58]: I’ll be off round 2
[KEVIN (unspecified time)]: Ok
[KEVIN 2:18:14]: Is it too late for u to
get me a shot too
[KEVIN 2:18:23]: If so its fine I can run
out
[AMANDA 2:19:12]: I’ll give u the
money I’m [still] at work
[KEVIN 2:19:12]: Ok
[KEVIN 2:19:16]: I [have] [money]
Amanda testified that when she got home from
work on the afternoon of May 3, she went into her
bedroom to change and saw Luke covered with a

8a
blanket, seemingly asleep. She further stated that
without waking Luke, she put a diaper on him,
changed his shorts, and Kevin put him in her car.
While Amanda was driving Luke home, she and
Kevin exchanged the following text messages:
[KEVIN 3:16:16]: Hey I love you be careful
[KEVIN 3:16:45]: Dont tell them o bit him back lol
Blame [Son]
[KEVIN 3:17:01]: I didn’t even bite him hard but
apparently he bruises easy
[AMANDA 3:18:33]: I told her he had bruises so I’ll
just say they were all ready there.
[AMANDA 3:18:42]: I love u too
[KEVIN (unspecified time)]: Im glad we have a day
off together
[KEVIN 3:19:42]: Well he bit the shit out of me
[KEVIN 3:19:51]: How else will he learn not to bitw
[KEVIN 3:19:53]: Bite
[AMANDA 3:20:22]: Right
[AMANDA 3:20:33]: I only get on u cause I know u
can do better
[KEVIN 3:20:46]: [I’d] be more con[c]erned about all
the bruises

9a
When Amanda arrived at her sister’s home,
Victoria found Luke in a booster seat in the backseat
hunched over. He was unresponsive, had a large
bump on his head, had a bite mark on his arm, and
was making a phlegmy sound while barely
breathing. It was later discovered that Luke also had
several other bruises. Nick took Luke out of the car,
and Victoria called 911. Nick then went to get a
neighbor who was an EMT.
Initially, Luke was transported by ambulance
to Shore Memorial Hospital in Nassawadox, Virginia
but, given the grave nature of his condition, he was
promptly transported by helicopter to King’s
Daughters Hospital in Norfolk, Virginia. Luke was
taken into surgery immediately upon arrival. He
never regained consciousness. Luke died on Tuesday,
May 5, 2015.
Kevin Sewell was charged with (1) first-degree
murder, (2) first-degree child abuse, second-degree
murder, and (4) neglect of a minor. Amanda Sewell
was also charged in the death of Luke, but was
granted immunity by the State and compelled to
testify.
Before trial, a hearing was held on defense
counsel’s motion in limine to exclude the text
messages between Kevin and his wife while Luke
was in his care. The basis for the motion was the
marital communications privilege. The trial court
denied the motion. During the trial, the State moved
into evidence screenshots of the text messages
containing timestamps. Over defense counsel’s
continuing objection, the screenshots of the text

10a
messages were received in evidence as a State’s
exhibit. The text messages were also read into the
record in a colloquy between Amanda and the State.
At trial, Dr. Suzanne Starling, the medical
director of the child abuse program at the Children’s
Hospital of the King’s Daughters, testified that she
examined Luke when he arrived at the hospital. She
observed that “he was covered in bruises from head
to toe.” She noted that Luke had multiple injuries,
which included a large bruise on his stomach;
bruises on both hips; bruises on his legs, arms, and
underneath his armpit; several injuries across his
chest; and “a very large bruise from his forehead up
into his hair.” On the left side of his face, he had a
small cut underneath his eye, bruising on the front
of his cheek, bruising across his jawbone, bruising
inside his ear, bruising underneath his chin, and
several bruises around his neck. Starling testified
that Luke had similar injuries to the right side of his
face. These injuries included “bruises all around his
hairline, bruises all in front of his ear, and his right
ear [was] really significantly bruised inside, and
even swollen around the outside, and the bruises
extend[ed] all the way down from his jawbone onto
his neck.” In addition, Luke “had a very large bite
mark on his right shoulder,” a bite mark on his left
shoulder, and a bite mark on his left forearm. The
doctor also testified that “the skin from the base of
[Luke’s] penis to the tip of his penis [had] been
removed.” Starling opined, with a reasonable degree
of medical certainty, that “the bruises were
inflicted,” meaning “they didn’t occur by accident.”
She determined that “a blow to the abdomen caused

11a
[Luke] to have abdomen trauma,” and that he
sustained abusive head trauma.
Starling concluded that the fatal injury did not
occur until after breakfast on Sunday, May 3. She
explained that Luke “would not be expected to eat
normally” due to the severity of his head injury and
abdominal trauma, and the “fact that he was able to
sit up and eat breakfast demonstrates that he had
not received his fatal injury at that time.” Starling
testified that Luke was “clearly significantly injured
at the time that he lost consciousness later in the
morning.”
After Luke’s death, Dr. Wendy Gunther
performed an autopsy. At trial, Gunther testified
that Luke sustained a minimum of 40 to 50 injuries,
and that his brain was still in the process of swelling
when she performed the autopsy. Based on her
observations, Gunther concluded, to a reasonable
degree of medical certainty, that Luke died from
“shaken/slam syndrome with many other injuries
contributing.” She explained that when “a child is
shaken, or shaken and slammed, their brain is
injured,” and when the brain sustains an injury, it
swells. Gunther concluded that someone punched or
hit Luke on the top of his head causing “direct blunt
trauma to his head.” She also observed that many of
the injuries were “control injuries,” which occur
“anyplace where a person’s hands would naturally
fall when grabbing a child to control it,” such as the
arms, legs, stomach, and hip. Like Starling, Gunther
testified that Luke’s injuries were recently inflicted,
as they did not “look like they[ were] starting to
heal.”

12a
Kevin Sewell was convicted of first-degree
murder, first-degree child abuse, and neglect of a
minor child. Sewell timely appealed to the Court of
Special Appeals. In a reported decision, Sewell v.
State, 236 Md. App. 96, 114 (2018), the intermediate
appellate court ruled that the text messages between
Sewell and his wife were marital communications
and, as such, it was incumbent upon the State to
rebut
that
presumption
of
confidentiality.
Concluding that the State failed to do so, it held that
the trial court abused its discretion in admitting the
text messages, and it remanded the case for a new
trial. Id. at 115–16. We granted the State’s petition
for a writ of certiorari.
DISCUSSION
Confidential Marital Communications Privilege
Subject to limited exceptions, “[l]itigants and
their spouses are competent and compellable to give
evidence.” See Md. Code (1973, 2013 Repl. Vol.), § 9101(2) of the Courts and Judicial Proceedings Article
(“CJP”). There are two distinct marital privileges: the
first,
protecting
confidential
marital
communications, and the second, privileging adverse
spousal testimony. Here, the confidential marital
communications privilege is at issue. In Maryland,
this privilege is codified at CJP § 9-105,
“Confidential communications occurring during
marriage.” This section provides that “[o]ne spouse is
not competent to disclose any confidential
communication between the spouses occurring
during their marriage.” Id. The privilege is available
in both civil and criminal trials and may be invoked

13a
by either spouse. See Joseph F. Murphy, Jr.,
Maryland Evidence Handbook, § 903(B) at 445–46
(4th ed. 2010).
The State contends that a “conflict” exists
among the Court of Special Appeals’ decisions and
that we should resolve it by holding that the marital
communication privilege
must be narrowly
construed. Regarding the confidential marital
communications privilege, the State asserts that, to
the extent that it has been construed in the past, this
Court has been too “liberal” and untethered the
privilege from its original purpose—to preserve and
promote marital and family harmony. All testimonial
privileges, the State contends, should be disfavored
and narrowly construed. Sewell, on the other hand,
sees no conflict to resolve. Instead, Sewell
characterizes all past case law as broadly
interpreting the marital communications privilege
and recognizing few, if any, exceptions.
Typically, “privilege statutes are interpreted
narrowly.” Bryant v. State, 393 Md. 196, 202 (2006)
(citations omitted). See also Murphy, Maryland
Evidence Handbook, § 900 at 422 (“It is obvious that
evidence excluded on grounds of privilege increases
the danger of an incorrect verdict. The privilege laws
are therefore given a narrow, strict construction.”); 6
Lynn McLain, Maryland Evidence: State and
Federal, § 501:1 at 6 (3d ed. 2013) (“[P]rivileges are
strictly construed, because they exclude relevant,
reliable evidence.”); 1 Kenneth S. Brown, McCormick
on Evidence, § 74 at 474 (7th ed. 2013) (“Since
privileges operate to deny litigants access to every
person’s evidence, the courts have generally

14a
construed them no more broadly than necessary to
accomplish their basic purposes.”). We have stated
as much in cases involving the psychotherapistpatient privilege, Bryant, 393 Md. at 202; the
attorney-client privilege, E.I. du Pont de Nemours &
Co. v. Forma–Pack, Inc., 351 Md. 396, 406 (1998);
and the accountant-client privilege, Sears, Roebuck
& Co. v. Gussin, 350 Md. 552, 562 (1998).
We have not explicitly announced a narrow
interpretation of CJP § 9-105, but we have
interpreted the statute and discerned that the
General Assembly intended certain limitations on
what communications qualified for the marital
privilege:
The policy reasons underlying the
privilege
for
confidential
communications between husband and
wife are (1) that the communications
originate in confidence, (2) the
confidence is essential to the relation,
(3) the relation is a proper object of
encouragement by the law, and (4) the
injury that would inure to it by the
disclosure is probably greater than the
benefit that would result in the judicial
investigation of truth.
Coleman v. State, 281 Md. 538, 541 (1977) (citing 8
Wigmore, Evidence, § 2332 (McNaughton rev. 1961)).
See also 1 Brown, McCormick on Evidence, § 80
at 507 (most courts “read into [marital
communications privilege statutes] the requirement
of confidentiality”).

15a
We
reinforced
the
importance
of
confidentiality in assessing whether a given
communication to a spouse was within the privilege:
“The essence of the privilege is to protect confidences
only, . . . and thereby encourage such
communications free from fear of compulsory
disclosure, thus promoting marital harmony.” Id.
(citing 8 Wigmore, Evidence, § 2332; and
McCormick, Handbook of the Law of Evidence, § 86
(2d ed. 1972)).
To narrowly construe a privilege, however,
simply means that courts must not endeavor to
overread its applicability and resolve ambiguities in
favor of admitting evidence. See Ashford, 147 Md.
App. at 70. In Maryland, any party resisting
discovery by asserting a privilege “bears the burden
of establishing its existence and applicability” and
must “substantiate its non-discovery” by a
preponderance of the evidence. Forma–Pack, 351
Md. at 406, 409 (applying attorney-client privilege).
The confidential marital communications privilege
requires: (1) a communication; (2) that the couple
was married at the time of the communication; and
(3) that the communication was intended to be
confidential. See CJP § 9-105.
The parties agree that the first two showings
have been made, but they disagree about whether
the communication was confidential, on two grounds.
First, the parties dispute which party bears the
burden of establishing that a communication was
confidential—i.e., whether marital communications
are presumed confidential. Second, they disagree
about
whether
the
specific
text
message

16a
communications at issue were, in fact, demonstrated
to be confidential.
We have recognized that communications
between spouses are considered confidential when:
(1) “expressly made so”; or (2) “the subject is such
that the communicating spouse would probably
desire that the matter be kept secret, either because
its disclosure would be embarrassing or for some
other reason.” Coleman, 281 Md. at 542 (citation
omitted). The Coleman Court cited, with approval,
language from the Court of Appeals of New York
indicating that the privilege is “designed to protect
and strengthen the marital bond” and, thus,
“encompasses only those statements . . . induced by
the marital relation . . . .” Id.
Sewell contends that this Court presumes
marital communications to be confidential, unless
presented with evidence to the contrary, citing State
v. Enriquez, 327 Md. 365, 372 (1992). The State, on
the other hand, emphasizes that any presumption of
confidentiality is a judicial creation and, thus,
encourages the Court to constrain this presumption,
to the extent that one exists. The State argues that
Maryland is “not so much at the tip of the spear, as
at the back of the line” when it comes to a
progressive interpretation of the confidential marital
communications privilege.
“Generally, the courts have presumed that
communications between husband and wife are
confidential
and
privileged,
although
the
circumstances of a given case can negate this
presumption.” Coleman, 281 Md. at 543 (citations

17a
omitted). We reasserted this presumption in
Enriquez, 327 Md. at 372, stating clearly that “there
is a rebuttable presumption that marital
communications are confidential and privileged. The
presumption is rebutted . . . where it is shown that
the communication was not intended to be
confidential.” The State recognizes this history, but
asks us to modify our approach to this privilege.
It is our practice to avoid unnecessarily
“making shipwreck” of well-settled precedent. See
Boyd v. Parker, 43 Md. 182, 201 (1875). And we
think wreckage is not necessary here. Rather we rely
on settled law that the presumption of
confidentiality can be rebutted by showing that the
communication was made with the reasonable
expectation that a third party would learn of it. See
Gutridge v. State, 236 Md. 514, 516 (1964) (“The
message sought to be sent to the appellant’s wife
through
another
cannot
be
regarded
as
confidential.”). We also consider precedent from the
Court of Special Appeals allowing rebuttal of the
presumption when the party supporting admission
could show that the statement was not induced by
the marital relation. See Harris v. State, 37 Md. App.
180, 184 (1977). We have never attempted to identify
all possible avenues to rebut this presumption, and
today we consider a new one.
Confidentiality of Text Message Communications
The State makes various general and policybased arguments to support the view that
testimonial
privileges,
including
marital
communications, should be narrowly construed

18a
because “the fundamental objective of a trial is the
ascertainment of the truth . . . through the
introduction of relevant evidence[.]” This theme
permeates the State’s more specific arguments. We
consider two theories advanced by the State to
demonstrate rebuttal of the presumption of
confidentiality for marital communications, which
we discuss below. 2 Sewell, in response, focuses on
the presumption of confidentiality, and asserts that
a waiver of the confidential marital communications
privilege “will only be found in the clearest of
circumstances.”
(i) Wong-Wing v. State
First, the State asks us to extend the Court of
Special Appeals’ reasoning in Wong- Wing v. State,
156 Md. App. 597, 610 (2004), and conclude that
Sewell and his wife had “no reasonable expectation
of confidentiality” when they communicated via text
message. Sewell, responding, sees Wong-Wing as
presenting entirely different circumstances—the
relevant communication being a message left on a
telephone answering device located in a shared living
space—and disagrees that the presumption has been
rebutted.
Wong-Wing involved a defendant-husband
(“Wong-Wing”) accused of sexually abusing his thenwife’s (“Sherry”) daughter. See id. at 602. After he
was confronted about this sexual abuse, Wong-Wing
left multiple messages on an answering machine
located in Sherry’s home. See id. at 603. He
The State offers these theories without conceding the
existence of a presumption of confidentiality.
2

19a
addressed the messages to his wife, beginning each
with the word “Sherry.” Id. The messages stated that
Wong-Wing did not “want to hear anything that
happened before,” knew he caused “a lot of pain and
grief,” was “sorry” for all he caused, and did not “feel
like living anymore.” Id. The trial court overruled
Wong- Wing’s objection and admitted the recording
transcripts. See id. at 605.
The Court of Special Appeals agreed with the
trial court’s decision and held that admission of the
messages did not violate CJP § 9-105. Id. at 610. The
intermediate appellate court observed that WongWing left his messages “on an answering machine in
a home that he knew [Sherry] shared with her
adolescent daughter and her mother” and that all
family members “moved freely between the two
living spaces.” Id. at 609. Accordingly, Wong-Wing
“ran the risk” that others could have overheard or
retrieved the message and had no reasonable
expectation of confidentiality. Id. at 610. Thus, the
State demonstrated that the circumstances
surrounding Wong-Wing’s communication destroyed
his expectation of confidentiality—knowing that
multiple individuals had access to the answering
machine, he chose to leave his message there
anyway. We agree with the Court of Special Appeals
that evidence about Sherry’s living arrangements
rebutted the presumption of confidentiality. For
Wong-Wing to trust that these messages would be
confidential simply was not reasonable.
The State would have us extend this rationale
to encompass text messages generally, including the
ones at issue here. It focuses on the Wong-Wing

20a
court’s reasoning that “[e]ven if there were any
ambiguity, ‘the disfavor with which the law looks on
testimonial privileges dictates that we resolve an
ambiguity against the privilege, rather than in its
favor.’” Praising the Wong-Wing rationale, the State
asserts: “The merit of the approach taken in WongWing is that it imposes a reasonable and pragmatic
limitation on an otherwise boundless presumption of
entitlement to a policy-based privilege that itself
was never intended to be boundless.” It further
advances that “[i]f a spouse chooses to communicate
in a manner that assumes a practical risk that
someone other than the intended recipient could
retrieve the message, there is no logical basis for
‘presuming’ that the person intended for the
communication to be confidential[.]”
We are not in lock-step with the State’s view
of text messages. We agree, rather, with Sewell that
the circumstances in Wong-Wing differ from those in
this case. We see a substantial difference between
traditional answering machines (prevalent before
cell phones) and the text messaging capabilities of
modern cell phones. Because cell phones are so
small, they are highly portable, and can be easily
carried in a pocket or purse. Conceivable scenarios
exist wherein a party could reasonably believe a text
message to be confidential, just as scenarios exist
wherein this assumption would not be reasonable.
Thus, it would be unwise to presume that text
messages themselves can never be confidential.
Again, it was the State’s responsibility to make a
demonstration one way or the other.

21a
(ii) Confidentiality of Matters the
Spouse is Mandated to Report
In the alternative, the State focuses on the
nature of the crime—arguing that “every federal
circuit court to have ever considered the issue has
interpreted an exception to the corresponding federal
privilege in cases of, inter alia, child abuse,” and
citing cases from multiple federal jurisdictions. It
emphasizes that “child abuse occurs most often in
the home at the hands of a parent or parentsubstitute. Testimony regarding confidential marital
communications may constitute critical evidence in
such cases.” United States v. Breton, 740 F.3d 1, 11
(1st Cir. 2014). It continues, “Several states, and the
District of Columbia, recognize a similar exception
by court rule or statute.”
Maryland, the State asserts, has also
legislatively recognized an exception concerning
child abuse, citing Maryland Code (1987, 2012 Repl.
Vol.), § 5-705(a)(1) of the Family Law Article (“FL”).
This requires that “notwithstanding any other
provision of law, including a law on privileged
communications” any person in Maryland “who has
reason to believe that a child has been subjected to
abuse or neglect shall notify the local [Department
of Social Services] or the appropriate law
enforcement agency.” 3 Id. (emphasis added). The
Reports made under this section are encouraged, “to the
extent possible,” Maryland Code (1987, 2012 Repl. Vol.), § 5705(d)(1) of the Family Law Article (“FL”), to include all
information specified in FL § 5-704(c)—the name, age, and
address of the child and responsible parent; the whereabouts of
the child; the nature, extent, and possible previous incidents of
child abuse or neglect; and any information “that would help to
3

22a
State sees the Family Law Article as “reflect[ing] a
legislative determination that preserving marital
harmony, though a legitimate value in its own right,
is not predominant over society’s interest in
identifying and prosecuting the abuse of children
in Maryland.” It submits that Sewell had no
reasonable expectation of confidentiality when he
communicated something his wife had a statutory
duty to disclose.
Sewell, although not specifically addressing
FL § 5-705 in his brief, generally responds that the
marital communications privilege applies, even when
made in furtherance of a crime, citing State v.
Mazzone, 336 Md. 379 (1994). During oral
arguments, Sewell seemed to suggest that, were the
General
Assembly
intending
that
marital
communications regarding child abuse or neglect be
exempted from the marital privilege, it would have
done so in the Courts and Judicial Proceedings
Article, not the Family Law Article.
There are few matters our State takes more
seriously than child abuse. Thus, we examine
carefully the impact of FL § 5-705 on the marital
communications privilege, especially in light of the
General Assembly’s explicitly broad statement of
application— “notwithstanding any other provision
of law.” Mandatory reporting for suspected child
abuse has existed for some time, but it was
previously only a requirement for health
practitioners, police officers, educators, and human
service workers. See id. § 5-704(a). In 1987, the
determine” the cause of and the individual responsible for the
abuse or neglect.

23a
General Assembly expanded this child protective
statute by adding § 5-705— imposing a child abuse
reporting obligation on the general public. See 1987
Md. Laws ch. 635 at 2948.
The original statute applied, notwithstanding
“any law on privileged communications . . . .” Id. But
in its first amendment thereto, the General
Assembly specifically exempted knowledge gained
through the attorney-client and priest-penitent
privileges. See 1988 Md. Laws ch. 769 at 5021.
Knowledge gained through the confidential marital
communications privilege, however, has not been
exempted, and thus a spouse, notwithstanding the
privilege, is obligated to report suspected child
abuse.
In evaluating a privilege claim, we consider
whether the information could “reasonably be
expected to remain confidential.” Forma–Pack, 351
Md. at 416–17 (citations omitted). One method of
destroying
a
reasonable
expectation
of
confidentiality is through disclosure to a third party.
“Disclosure to one’s spouse with the intent that the
spouse reveal one’s communication to a third party,
outside any other privileged relationship such as
attorney-client, also will negate the privilege.” 6
McLain, Maryland Evidence State and Federal, §
505:2 at 203. The question, here, is what to do when
one spouse is mandated to disclose certain
information to a third party upon hearing it,
notwithstanding
the
confidential
marital
communications privilege.

24a
We have not so far been presented with a case
involving a privilege claim competing with a
mandatory disclosure obligation. But we consider
relevant our cases dealing with third party
disclosure. Among our first of these was Master v.
Master, 223 Md. 618 (1960), involving a husband who
sought to bar his wife’s testimony as to statements
he made claiming to have paid his taxes. See id. at
623. The husband alleged that these statements
were protected by the confidential marital
communications privilege. See id. Nonetheless, we
determined that, because the statements were “made
in the presence of children old enough to understand
fully what was being said,” they were not
confidential. Id. We concluded that confidential
communications do not include those made “in the
hearing of third persons,” and that these statements
“may be testified to by husband or wife.” Id. at 624.
Maryland courts have continually reaffirmed
that third party disclosure, and reasonable
expectation of third party disclosure, are
quintessential situations negating any reasonable
expectation of confidentiality. See, e.g., Coleman, 281
Md. at 543 (“[T]he fact that a husband knew that his
wife was unable to read without the assistance of a
third party would rebut the presumption that a
letter which he sent to her was intended to be
confidential.”) (citation omitted); Gutridge v. State,
236 Md. 514, 516 (1964) (“The message sought to be
sent to the appellant’s wife through another cannot
be regarded as confidential.”); Matthews v. State, 89
Md. App. 488, 502 (1991) (“If the communication is
made with the contemplation or expectation that a
third party will learn of it, the confidential

25a
communication privilege does not apply.”) (citation
omitted); Mulligan v. State, 6 Md. App. 600, 615
(1969) (“The admission made by the appellant to his
wife in the presence of the police when he saw her in
the room in the police station was not a confidential
communication . . . .”).
In Coleman we reviewed whether a wife could
disclose statements her husband made to her
regarding the location of a ring that he had stolen
from a woman he was alleged to have raped. 281 Md.
at 540. The husband asked his wife to retrieve the
ring from another woman who had access to his
apartment and, at his request, had hidden the ring.
Id. Disagreeing with the Court of Special Appeals’
holding that the husband knew his communication
would be disclosed to a third person, we concluded
that the husband “did not suggest that his wife
disclose his communication to a third party, nor did
the circumstances require a disclosure.” Id. at
544 (emphasis added). We held that the statements
remained confidential and privileged. See id.
Coleman may represent the outer reaches of
the confidential marital communications privilege. It
is also readily distinguished from the present case.
Retrieving a ring from a third party is not a
circumstance requiring disclosure because the task
could have been carried out without revealing the
husband’s communication. Further, unlike the child
abuse reporting statute, no law requires disclosure of
all known or suspected illegal activity to law
enforcement. Because it is reasonable to expect
that a spouse will not betray the other spouse’s

26a
marital trust, the communication remains encased in
its confidential patina.
But the tipping point is reached when the
privilege is asserted with respect to information the
other spouse is under a legal duty to disclose to law
enforcement. 4 Amanda Sewell, like all Marylanders,
owed a legal duty to make a report if she had any
“reason to believe” that a child was the victim of
abuse or neglect, “notwithstanding any other
provision of law.” FL § 5-705(a)(1) (emphasis
added). We hold that the phrase “notwithstanding
any other provision of law” in this section includes
the confidential marital communications privilege.
Kevin Sewell, like all Marylanders, is “presumed to
know the law,” irrespective of his subjective
understanding. Benik v. Hatcher, 358 Md. 507, 532
(2000). When Kevin discussed matters that he knew
(or should have known) Amanda had an affirmative
duty to report to a third party, he no longer retained
a colorable claim that the communications were
“reasonably expected” to remain confidential.
It is not material that Amanda did not, in fact,
make a report. Rather, the focus is on what Kevin
could reasonably expect. Thus, we agree with the
Sewell’s potential ignorance of the law is no excuse.
“[E]veryone is ‘presumed to know the law regardless of
conscious knowledge or lack thereof, and are presumed to
intend the necessary and legitimate consequences of their
actions in its light.’” Benik v. Hatcher, 358 Md. 507, 532 (2000)
(citation omitted). There are some instances where the General
Assembly has determined that such a presumption is
inappropriate, like when the Legislature requires notice. See
Hughes v. Moyer, 452 Md. 77, 98 (2017). But this is not such a
circumstance.

4

27a
State that, in such a circumstance, such
communication is not confidential, and therefore not
excluded by CJP § 9-105, the confidential marital
communications privilege.
Our decision is reinforced when we consider
the relative dates of enactment of FL § 5-705 and
CJP § 9-105. We have stated that “if two statutes
contain an irreconcilable conflict, the statute whose
relevant substantive provisions were enacted most
recently may impliedly repeal any conflicting
provision of the earlier statute.” Atkinson v. Anne
Arundel Cty., 428 Md. 723, 743 (2012) (citation
omitted). To the degree that the present statutes are
in conflict—and we need not decide whether there is
an “irreconcilable conflict” here— FL § 5-705 would
control the Court’s reading in this instance. The
confidential marital communications privilege has
existed, in some fashion, since 1864. See 1864 Md.
Laws ch. 109 at 137. The mandated reporting
requirement, as discussed earlier, was not enacted
until 1987. Thus, were these statutes in conflict, we
would presume that the General Assembly knew the
language of CJP § 9-105 and passed the reporting
statute with the intention that it control.
Excluding statements regarding child abuse
from
the
realm
of
“confidential”
marital
communications is also sensible policy aligned with
the privilege’s purpose. The confidential marital
communications privilege cannot be a safe harbor for
abuse and predation—excluding the invaluable
testimony of one of the only likely witnesses to such
intimate crime against such vulnerable victims. 5
5

We have employed such a rationale before. In Brown v. State,

28a
“The argument traditionally advanced in support of
the marital communications privilege is that the
privilege is needed to encourage marital confidences,
which confidences in turn promote harmony between
husband and wife.” 1 Brown, McCormick on
Evidence, § 86 at 523. Therefore, offenses against a
“spouse, child, or cohabitant . . . most strongly
implicate the policy that justifies the creation” of an
exception to the marital communication privilege.
6C–13 Edward J. Imwinkelried, The New Wigmore: A
Treatise on Evidence, Evidentiary Privileges, § 6.13.5
at 1467–68. Such offenses “imperil the family unit,”
and thus undermine the overarching rationale for
the privilege. 6 Id.

359 Md. 180, 192 (2000), we observed the existence of a
significant exception to the common law marital privileges—
“from the earliest time, a wife was permitted to testify against
her husband when she was the victim of his criminal conduct.”
The rationale behind this exception is to prevent the
“perversion” of allowing a husband who commits a crime
against his wife to then quash her testimony by asserting
privilege, as she is often the only one able to testify against him.
Id. This statement affirms the position we took in State v.
Enriquez, 327 Md. 365, 369 n.1 (1992), providing that,
“[c]learly, crimes against the other spouse are not privileged.”
How far this rationale extends beyond crimes against the
spouse, we stated, was “not clear.” Brown, 359 Md. at 192 n.4.
Modern explanations for the confidential marital
communications privilege revolve around more “humanistic
considerations.” 1 Kenneth S. Brown, McCormick on Evidence,
§ 86 at 524 (7th ed. 2013). “It is a matter of emotion and
sentiment. All of us have feelings of indelicacy and want of
decorum in prying into the secrets of husband and wife.” Id. at
525. Protection against disclosure of communications revealing
child abuse within the home is also at odds with this more
“humanistic” rationale.
6

29a
In sum, we hold that when one spouse
communicates information to the other spouse that
the other spouse is under a statutory duty to
disclose,
any
reasonable
expectation
of
confidentiality is destroyed. Consequently, this
communication is not confidential, and not protected
by the confidential marital communications
privilege. To reach any other conclusion would be to
sanction ignorance of the law and mock the principal
basis for the confidential marital communications
privilege, in the first instance.
Yet, our interpretation of these competing
statutes does not fully answer the question as to
whether the trial court abused its discretion by
allowing the text messages into evidence in this case.
Sewell’s Text Messages to His Wife
We do not agree with the trial court that the
text message communications should have been
admitted on the grounds that the marital privilege
did not apply because the text message medium itself
could not reasonably be considered confidential. As
we said before, text messaging is a platform capable
of confidential use.
But the texts were nonetheless admissible
under the circumstances here. The texts are not
shielded by marital privilege because they consisted
of information that Amanda had an affirmative legal
duty to report to authorities—Kevin could not
reasonably expect they would be confidential. 7 It is
7

It is of no moment that the trial court used a different
rationale. We have, on numerous occasions, stated that “where

30a
worth repeating the specifics of this statutory duty,
beginning with the obligation of all Marylanders with
“reason to believe” that a child is the victim of abuse
to “notify the local department or the appropriate law
enforcement agency.” FL § 5-705(a)(1). A report of
abuse made pursuant to FL § 5-705(a) “may be oral
or in writing,” id. § 5-705(c), and “shall include,” to
the extent possible, “the information required by
[FL] § 5-704(c),” id. § 5-705(d)(1). This includes the
name, age, and address of the child and responsible
parent; the whereabouts of the child; the nature,
extent, and possible previous incidents of child abuse
or neglect; and any other information “that would
help to determine” the cause of and the individual
responsible for the abuse or neglect. Id. § 5-704(c).
Amanda observed many bruises on Luke’s
body after dinner on Saturday, as well as a knot on
his head—enough to cause her to call his mother. On
Sunday at 9:07 a.m., after Amanda had been at work
for a couple of hours, she texted Kevin to see if
“everything [was] ok.” A series of messages followed,
during which Kevin complained that Luke “doesn’t
listen worth shit,” was “acting like a f---ing asshole,”
had vomited, and that it had been a “day from hell.”
After work, Amanda changed Luke’s diaper after the
skin from the base of Luke’s penis to the tip of his
penis had been removed, and discovered that Luke
had large bitemarks on his body. It is palpable that,
by the time Amanda placed Luke in her car to take
the record in a case adequately demonstrates that the decision
of the trial court was correct, although on a ground not relied
upon by the trial court and perhaps not even raised by the
parties, an appellate court will affirm.” Robeson v. State, 285
Md. 498, 502 (1979) (emphasis omitted).

31a
him back to his parents—and very likely before
that—she possessed the requisite “reason to believe”
that Luke had been the victim of child abuse at the
hands of her husband, and knew that her husband
had bitten the child causing the marks. Amanda’s
awareness of the severity of the abuse is evident in
the couple’s effort to conceal the source of Luke’s
injuries from Luke’s parents. Indeed, the text
messages indicate that Amanda had to “get on”
Kevin before about similar behavior.
The injuries were so severe that, upon seeing
her child, Luke’s mother immediately realized he
was in grave danger—he was unresponsive, covered
in bruises, and “making a phlegmy sound” while
barely breathing. Under these circumstances, no
reasonable person could miss the abuse. Thus,
Amanda was mandated to report this information,
and by law, none of her husband’s text messages
relating to the time during which Luke was in his
care were confidential.
Information or circumstances giving rise to a
reportable incident of child abuse need not be found
in each individual communication to be admissible.
See, e.g., Utah v. Widdison, 4 P.3d 100, 111 n.9 (Utah
Ct. App. 2000) (recounting the testimony from a wife
concerning statements by her former husband that
gave rise to suspected child abuse and were admitted
over an objection invoking the confidential marital
communications privilege). Reporting can be
cumulative. For example, some suspicions of abuse
are built up over time—e.g., from ongoing
conversations and experience with a child or their
suspected abuser—while others are gained

32a
instantaneously—e.g., seeing a child with injuries
clearly suggesting abuse. Regardless, once a
mandated reporter possesses the necessary “reason
to believe” that a child has been the victim of abuse,
any information “that would help to determine” the
individual suspected of the abuse and the
circumstances surrounding that suspicion shall be
revealed, “notwithstanding any other provision of
law, including a law on privileged communications,”
FL §§ 5-704(c), 5-705(a)(1).
Accordingly, Amanda was obligated by law to
report the suspected abuse, including each text
message quoted in this opinion. They were not
protected
by
the
confidential
marital
communications privilege because it was not
reasonable for Kevin to believe that his text message
communications were confidential when they
pertained to child abuse and must be disclosed. It
matters not whether Kevin thought they were
confidential at the time he sent them. A court
performs an objective analysis, and based on such,
clearly the privilege does not attach to
communications relating to child abuse. The entire
collection of text messages relate to Kevin’s actions
that day as caretaker for the children, and therefore,
they were admissible against him for all charges
relating to and stemming from child abuse. 8

Kevin Sewell was charged with and convicted of first-degree
murder, first-degree child abuse, and neglect of a minor child.
Each of these charges possesses the necessary relation to child
abuse to warrant admissibility of the text messages.
8

33a
CONCLUSION
We hold that courts should continue to
narrowly construe all privileges. Even so, the
confidential marital communications privilege
contains a rebuttable presumption of confidentiality
once other elements are established. Further, text
messages, like other marital communications, are
presumed to be confidential, unless the party
advocating for their admission can establish that
they were not. Finally, we hold that it is
unreasonable for a spouse to assume that
communication made to the other spouse, which the
latter has a legal duty to report to law enforcement,
is confidential.
The text messages in this case were properly
admitted against Respondent. For the reasons stated
herein, we reverse the judgment of the Court of
Special Appeals and remand the case to that Court
with instructions to affirm the judgment of the
Circuit Court for Worcester County.
JUDGMENT OF THE COURT OF
SPECIAL APPEALS REVERSED.
CASE REMANDED TO THAT
COURT WITH INSTRUCTIONS TO
AFFIRM THE JUDGMENT OF THE
CIRCUIT
COURT
FOR
WORCESTER
COUNTY
IN
ACCORDANCE
WITH
THIS
OPINION. COSTS TO BE PAID BY
RESPONDENT.

34a
Circuit Court for Worcester County
Case No.: 23-K-15-000516
Argued: October 4, 2018
IN THE COURT OF APPEALS OF MARYLAND
No. 20
September Term, 2018
STATE OF MARYLAND
v.
KEVIN SEWELL

Barbera, C.J.
Greene
*Adkins
McDonald
Watts
Hotten
Getty,
JJ.
Dissenting Opinion by Hotten, J.

Filed: April 2, 2019

35a
*Adkins, J., now retired, participated in the
hearing and conference of this case while an active
member of this Court; after being recalled pursuant
to the MD. Constitution, Article IV, Section 3A, she
also participated in the decision and adoption of this
opinion.
Respectfully, I dissent and would affirm the
judgment of the Court of Special Appeals.
On appeal, the State presented two issues for
our review:

1. Should this Court apply a principle

of narrow construction to the
marital communications privilege?

2. Did the trial court properly exercise
its discretion by allowing the State to
introduce
text
messages
that
Respondent sent to his wife’s cell
phone?

As to the first issue, the Majority contends that
Maryland Code, Family Law Article (“Fam. Law”)
§
5-705(a)(1)
rebuts
the
presumption
of
confidentiality that arose between Respondent Kevin
Sewell (“Sewell”) and his wife, Amanda Sewell
(“Amanda”). According to the Majority, “[w]hen
[Sewell] discussed matters that he knew (or should
have known) Amanda had an affirmative duty to
report to a third party, he no longer retained a
colorable claim that the communications were
‘reasonably expected’ to remain confidential.” Slip
op. at 21.

36a
In this regard, the Majority departs from
settled case law. Though we have narrowly construed
other privileges, we have not adopted a principle of
narrow construction to marital communications. See
e.g., State v. Mazzone, 336 Md. 379, 648 A.2d 978
(1994); State v. Enriquez, 327 Md. 365, 609 A.2d 343
(1992); Coleman v. State, 281 Md. 538, 380 A.2d 49
(1977), discussed infra.
STATUTORY AUTHORITY
As the Majority provides, “[t]here are two
distinct marital privileges: the first, protecting
marital communication [(“marital communications
privilege”)], and the second, privileging adverse
spousal testimony [(“adverse spousal testimony
privilege”)]. Here, themarital communications
privilege is at issue.” Slip op. at 9. The marital
communications privilege is codified in Maryland
Code, Courts and Judicial Proceedings Article (“Cts.
& Jud. Proc.”) § 9-105 and states that “[o]ne spouse
is not competent to disclose any confidential
communication between the spouses occurring
during their marriage.” The adverse spousal
testimony privilege is codified in Cts. & Jud. Proc.
§ 9-106 and explicitly contemplates that the
privilege will not apply in cases of child abuse. The
statute reads, in relevant part:

(a) The spouse of a person on trial for a

crime may not be compelled to testify as
an adverse witness unless the charge
involves:

(1) The abuse of a child under 18[.]

37a
(emphasis added). Cts. & Jud. Proc. § 9-106 clearly
provides an exception to the privilege, and is evidence
that the General Assembly could have written an
exception into Cts. & Jud. Proc. § 9-105, had it
wanted to do so. Instead, the Majority contends that a
separate Article of the Maryland Code, the Family
Law Article, should guide our interpretation of Cts.
& Jud. Proc. § 9-105.
When contrasted against one another, the
statutory text of Cts. & Jud. Proc. §§ 9-105 and 9-106
provides evidence that the marital communications
privilege is construed more broadly than its
counterpart. An analysis of our case law also reveals
that the marital communications privilege has been
interpreted
more
broadly
relative
to
our
interpretation of other evidentiary privileges.
CASE PRECEDENT
In Ashford v. State, 147 Md.App. 1, 65, 807
A.2d 732, 769 (2002), the Court of Special Appeals
emphasized that testimonial privileges are disfavored
because they operate in opposition to the truthseeking function of a trial. However, this Court has
consistently applied a more liberal construction to the
privilege of confidential marital communications, as
demonstrated with its precedent in State v. Mazzone,
336 Md. 379, 648 A.2d 978 (1994); State v. Enriquez,
327 Md. 365, 609 A.2d 343 (1992); and Coleman v.
State, 281 Md. 538, 380 A.2d 49 (1977).
In Coleman, this Court held that a husband’s
call to his wife, in which he directed her to conceal
evidence of his crime, constituted a confidential

38a
conversation protected by privilege. 281 Md. at 54445, 380 A.2d at 53-54. This Court’s holding clarified
the scope of Cts. & Jud. Proc. § 9-105, holding that
confidential communications between spouses are
privileged, even if the communication is in
furtherance of a crime. Id. at 545, 380 A.2d at 54.
In
Coleman,
the
Court
established
that
“[c]ommunications between husband and wife
occurring during the marriage are deemed
confidential if expressly made so, or if the subject is
such that the communicating spouse would probably
desire that the matter be kept secret, either because
its disclosure would be embarrassing or for some
other reason.” Id. at 542, 380 A.2d at 52. The
assertion that communications are confidential if so
desired by spouses provides for a liberal construction
of the spousal privilege.
The Majority writes that Coleman “may
represent the outer reaches of the confidential
marital communications privilege.” Slip op. at 20. I
fail to discern how Coleman does not represent this
Court’s liberal interpretation of the privilege. There
is nothing directly in the relevant statutory text (see
supra) that enables us to construe the privilege as
applying to crimes, but lacking in application to
child abuse.
In Enriquez, this Court held that the trial
court had improperly admitted Petitioner’s telephone
conversation with his wife. 327 Md. at 373, 609 A.2d
at 346. During the conversation, Petitioner
apologized for his alleged sexual assault on his wife
and claimed that he was in a treatment center. Id. at
369, 609 A.2d at 344. We applied a liberal

39a
construction
to
the
privilege
of
marital
communications, maintaining our assertion that no
exceptions apply to the privilege—whether for
communications pertaining to the furtherance of a
crime (Coleman) or for prosecutions of one spouse
against the other. Enriquez, akin to Coleman,
reasserted this Court’s rejection of a narrow
construction
to
the
privilege
of
marital
communications
and
the
presumption
of
confidentiality.
The State asserts that the liberal construction
of the marital communications privilege has
exceeded the scope of the policy rationale for the
privilege. In Coleman, this Court explained the
policy
reasons
for
the
statutory
marital
communications privilege, namely:
(1) that the communications originate
in confidence, (2) the confidence is
essential to the relation, (3) the relation
is a proper object of encouragement by
the law, and (4) the injury that would
inure to it by the disclosure is probably
greater than the benefit that would
result in the judicial investigation of
the truth.
281 Md. at 541, 380 A.2d at 51-52. The State claims
that both Coleman and Enriquez have resulted in
precedent that “is now wholly untethered” to the
Court’s policy rationale. However, in Enriquez, this
Court explained that the General Assembly had not
amended Cts. & Jud. Proc. § 9-105, nor had it taken
action to add express exceptions to § 9-105 since

40a
Coleman was decided. 1 Md. 365 at 373, A.2d at 346.
As such, this Court concluded that the legislature
“intended that [this Court’s] interpretation of the
statute in Coleman should obtain.” Id. This Court’s
precedent and interpretation of legislative intent
have
consistently
emphasized
a
liberal
interpretation of the marital communications
privilege that is codified in Cts. & Jud. Proc. § 9-105.
In State v. Mazzone, 336 Md. 379, 648 A.2d
978, this Court held that the Maryland Wiretapping
and Electronic Surveillance Act preserved the
marital communications privilege if interception of
these communications was not minimized and
reasonable. Mazzone was convicted of conspiracy to
violate controlled dangerous substance laws but
appealed his conviction based on the introduction of
alleged confidential communications with his wife
that had been intercepted through a wiretap. Id. at
381, 648 A.2d at 979. This Court analyzed the Court
of Special Appeals reversal, noting that the Court of
Special Appeals “explor[ed] the policy behind the
privilege statute, rather than the words of the
statute.” Id. at 389, 648 A.2d at 982. This Court
emphasized the necessity in considering the
statutory construction and plain language of Cts. &
In proclaiming that there are no exceptions to Cts. & Jud. Proc.
§ 9-105, this Court “held that the legislature recognized the
need for . . . express exception[s] for a statutory privilege
protecting certain communications [including those] between
accountant and their clients, and between psychiatrists or
psychologists and their patients. See § 9-110 and § 9-109 of the
Courts Article, respectively.” Enriquez, 327 Md. at 372-73, 609
A.2d at 346. Note that these express exceptions are codified in
the Cts. & Jud. Proc. Article, where the marital communications
privilege also exists.
1

41a
Jud. Proc. § 9-105 in order to properly “surmise
legislative intention[.]” Id. In exploring legislative
intent, this Court analyzed § 9-105 in conjunction
with § 10-407 of the wiretapping statute, concluding
“that privileged communications remain privileged
even after they are overheard by monitoring agents.”
Id. at 389, 648 A.2d at 983. This Court’s holding in
Mazzone reveals that a plain language analysis of
Cts. & Jud. Proc. § 9-105 uncovers the legislative
intent to err on the side of preserving confidential
marital communications as a privilege, further
evidencing the liberal construction of the privilege.
Our longstanding precedent in Coleman,
Enriquez, and Mazzone all speak to a liberal
interpretation of the marital communications
privilege. The case precedent, in conjunction with
the statutory authority, reveal that we have
consistently provided a broad interpretation of the
marital communications privilege. I fear that the
Majority’s decision will erode the privilege.
Accordingly, I dissent and would affirm the judgment
of the Court of Special Appeals.

42a
[ENTERED: March 5, 2018]
CASE NO. 2188, SEPT. TERM, 2016
Circuit Court for Worcester County
Case No. 23-K-15-0516
REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 2188
September Term, 2016
KEVIN SEWELL
v.
STATE OF MARYLAND
Wright, Graeff,
Raker, Irma S.
(Senior Judge, specially assigned), JJ.
Opinion by Raker, J.

Filed: March 5, 2018

43a
Appellant Kevin Sewell appeals from the
judgments of convictions in the Circuit Court for
Worcester County for the offenses of first degree
murder, child abuse in the first degree, and neglect of
a minor. He presents the following questions for our
review:
“1. Did the trial court err in admitting
privileged marital communications?
2. Should this Honorable Court
exercise plain error review and reverse
Appellant’s convictions based on the
State’s improper opening argument?”
We shall hold that the trial court erred in
admitting into evidence communications between
appellant and his wife which were privileged marital
communications. Because we reverse on this issue,
we do not address appellant’s second issue. 1
1 The alleged improper State’s argument is often referred to as
a “first-person” argument. We note that courts around the
country have split on the propriety of such first-person
arguments, although in the context of the prosecution’s closing
arguments rather than opening statements. Compare Malicoat
v. State, 992 P.2d 383, 401 (Okla. Crim. Appl. 2000) (holding
that first-person argument that “does not manipulate or
misstate the evidence” was not error), and McCray v. State, 88
So.3d 1, 50 (Ala. Crim. App. 2010) (holding that first-person
argument that only included reasonable inferences from the
evidence was not error), with Drayden v. White, 232 F.3d 704,
712–13 (9th Cir. 2000) (holding that first-person argument was
error but did not render the trial “fundamentally unfair” which
would have entitled defendant to a new trial), and Hawthorne
v. United States, 476 A.2d 164, 172–73 (D.C. 1984) (holding
that first-person argument substantially prejudiced the
defendant as to require a new trial).

44a
I.
The Grand Jury for Worcester County
returned an indictment charging appellant with the
offenses of first degree murder, child abuse in the
first degree, second degree murder, and neglect of a
minor child. He proceeded to trial before a jury and
on September 23, 2015, the jury found appellant
guilty of first degree murder, child abuse in the first
degree, and neglect of a minor child. The court
imposed a term of life imprisonment without the
possibility of parole for murder; thirty years’
imprisonment, to be served concurrently with the life
term, for child abuse; and a term of five years’
imprisonment to be served consecutive to the life
term for neglect.
The following facts emerged at trial. The
victim in this case was Luke Hill, a child born on
March 28, 2012. Luke died on May 5, 2015, and
according to Dr. Wendy Gunther, the cause of his
death was shaken/slam syndrome, with additional
blunt trauma to Luke’s chest, abdomen, back, and
extremities, and bite marks on his body.
Appellant was Luke’s uncle. He is married to
Amanda Sewell, the sister of the victim’s mother,
Victoria Harmon. Ms. Harmon testified that Amanda
and appellant would babysit Luke occasionally, and
that she drove Luke to their house on May 2, 2015,
leaving him there overnight. When Amanda
returned Luke to Ms. Harmon on May 3, his eyes
were closed, he was making a “phlegmy kind of
sound,” and he was covered in bruises. Ms. Harmon
called 911 immediately. Luke was transported to the

45a
hospital where he died on May 5. Several witnesses
testified that Luke had no injuries before he arrived
at appellant’s home. Robert Nottingham, a
firefighter, testified that on May 3, he had just
returned from work when Nick Miller (Ms. Harmon’s
fiancé) asked him to look at Luke. From his training,
he realized that Luke needed an ambulance
immediately.
The State charged appellant and Amanda
with crimes related to Luke’s death. The State
compelled Amanda to testify against appellant,
granting her use immunity for her testimony.
On December 14, 2015, appellant filed a pretrial motion to exclude from evidence text messages
sent by him to his wife, arguing that the messages
should be excluded as violative of the marital
privilege. On January 13, 2016, the court held a
hearing on appellant’s motion. The court denied the
motion in an order on January 20, without specifying
its reasoning.
At trial on September 20, 2016, the State
delivered the first two-thirds of its opening
statement 2 speaking as the victim. Appellant did not
object at any time during the State’s opening
statement.
During
trial,
the
State
introduced
photographs of Amanda’s phone screen, displaying
This ratio is based on the transcript of the opening statement,
which was a little over ten pages. The portion in which the
prosecutor spoke as Luke Hill covered about seven of those ten
pages.
2

46a
the text messages she and appellant exchanged on
May 3, with timestamps added to almost every text
message. Appellant renewed his objection to the text
message evidence, which the court overruled. Next,
the prosecutor and Amanda read the texts, with the
prosecutor reading appellant’s texts and Amanda
reading her own. They read the texts to the jury as
follows: 3
[AMANDA 9:07:22 a.m.]: Everything
okay?
[APPELLANT 9:14:15]: Ye boo.
[APPELLANT 9:14:28]: He doesn’t
listen worth shit, but we’re fine.
[APPELLANT 9:14:49]: I think Tori
told me he breaks out from grass.
[APPELLANT 9:15:02]: I wonder if
that’s why his neck and chest are broke
out.
[AMANDA 9:15:48]: His ear is bruised.
[APPELLANT 9:16:34]: Yeah, it sure it
[sic].
[APPELLANT 9:16:47]: Maybe him and
Landon were roughhousing.
[AMANDA 9:33:14]: He’s very skittish.

The text of these messages is taken from the trial transcript,
to avoid confusion over abbreviations and misspellings.
Timestamps are taken from the transcript where available, or
the photographs when the transcript does not include them.
3

47a
[APPELLANT 9:40:58]: Yeah, he is. I’ve
noticed.
[APPELLANT 9:41:00]: Why, though?
[APPELLANT 9:47:55]: He threw up on
our sheets.
[APPELLANT 9:48:24]: Phoebe was
sleeping, and he started screaming, so I
made him lay down.
[APPELLANT 9:48:32]: Then he threw
up on our bed.
[AMANDA 9:53:43]: Nice.
[AMANDA 9:54:23]: Strip the bed and
put what you can in the washer, please.
[APPELLANT 10:02:27]: Okay.
[AMANDA 10:12:49]: Thank you. How
are you?
[APPELLANT 10:13:07]: Good boo boo.
[AMANDA 10:32:39]: You going with
me to take him home?
[AMANDA 10:41:48]: ?
[AMANDA 11:20:32]: ?
[APPELLANT 11:44:12]: I thought you
were taking him tomorrow.
[APPELLANT 12:05:59 p.m.]: What
time you getting off?
[AMANDA 12:32:19]: Today.

48a
[AMANDA 12:32:27]: 1:30.
[APPELLANT 12:35:39]: Okay.
[APPELLANT 12:35:53]: That’s fine
because he’s acting like a fucking
asshole.
[APPELLANT 12:36:20]: He ignores
you like he’s retarded. He’s thrown up
twice and all he does is whine.
[APPELLANT 12:36:28]: This is the last
time.
[APPELLANT
12:37:21]: The other
thing I have been entertained by is him
running around saying butt fuck. He
starts clapping and looking for high
fives.
[AMANDA 12:51:54]: WTF.
[AMANDA 12:53:25]: You going to do
the yardwork while I’m gone?
[AMANDA 12:59:49]: ?
[APPELLANT 1:13:57]: I don’t know,
maybe.
[APPELLANT 1:14:10]: This has been a
day from hell. He’s finally asleep on our
room.
[APPELLANT 1:14:28]: Please get me a
bottle. This has been a day from hell.
[APPELLANT 1:25:00]: Please.
[AMANDA 1:31:43]: Okay.
[AMANDA 1:32:58]: I’ll be off around 2.

49a
[APPELLANT
(unspecified
time)]:
Okay.
[APPELLANT 2:18:14]: Is it too late for
you to get me a shot, too?
[APPELLANT 2:18:23]: If so, it’s fine. I
can run out.
[AMANDA 2:19:12]: I’ll give you the
money. I’m still at work.
[APPELLANT 2:19:12]: Okay.
[APPELLANT 2:19:16]: I have money.
[Counsel establishes that Amanda was
driving Luke home by 3:16 p.m., at
which time appellant sent the following
texts.]
[APPELLANT 3:16:16]: Hey, I love you.
Be careful.
[APPELLANT 3:16:45]: Don’t tell them
o [sic] bit him back. LOL. Blame
Landon.
[APPELLANT 3:17:01]: I didn’t even
bite him hard, but, apparently, he
bruises easy.
[AMANDA 3:18:33]: I told her he had
bruises. I’ll just say they were all ready
[sic] there.
[AMANDA 3:18:42]: I love you, too.
[APPELLANT (unspecified time)]: I’m
glad we have a day off together.

50a
[APPELLANT 3:19:42]: Well, he bit the
shit out of me.
[APPELLANT 3:19:51]: How else will
he learn not to bitw?
[APPELLANT 3:19:53]: Bite.
[AMANDA 3:20:22]: Right.
[AMANDA 3:20:33]: I only get on you
because I know you can do better.
[APPELLANT 3:20:46]: I’d be more
concerned about all the bruises.
On cross-examination, Amanda testified that
she had called her sister the night prior because Luke
was not well, and told her that Luke had a knot on his
head, bruises like black eyes, and additional bruises
behind his ears and on his arms, legs, and chest. Her
sister did not check on Luke, nor did she come and
get him. After several other neighbors and the
firefighter Mr. Nottingham testified, the Warden of
the Worcester County jail and Jason Hill, an inmate
there, testified that appellant told Hill that he struck
Luke and Hill reported it to the Warden.
Appellant called no witnesses.
Fifteen percent of the prosecutor’s closing
argument 4 consisted of reviewing the text messages
between appellant and Amanda as follows:

This ratio is based on the transcript of the closing argument,
which was about twenty-six pages. The portion in which the
prosecutor discussed the text messages covered about four of
those twenty-six pages.

4

51a
“[THE STATE]: Cell phones can be a
blessing and a curse. Sometimes
probably when you’re driving in the car
and you’re thinking, you know, I would
really just like some quiet time, and the
phone is ringing, you think of them as a
curse. Sometimes they are a blessing,
though, like when you need to call 911.
For [appellant] they were a curse
on May 3rd of 2015 because you were
able to, we were all able to, see in great
detail what occurred during the
morning into the afternoon hours of
Sunday, May 3rd. These cell phone text
messages give you all a window into 607
Oxford Street just as surely as that
window lets you look outside. The
timestamps will tell you when things
were said and correlate to what was
going on at that time.
So at that 9:07 Amanda says,
everything okay?
The Defendant says, ye boo. He
doesn’t listen worth shit, but we’re fine,
at 9:14 in the morning.
He then says, I think Tori told
me he breaks out from grass. I wonder
if that’s why his neck and chest are
broke out. He’s now planning?

52a
Amanda mentions that he’s very
skittish, and [appellant] says, yes, I’ve
noticed.
He then confirmed what we
already know through the observations
and testimony of Amanda, that he threw
up on our sheets. Significant because of
the injuries. This is at 9:47:55. We know
now why. Phoebe was sleeping, and he
started screaming, so I made him lay
down. I made him lay down.
Do
you
remember
Doctor
Starling’s testimony regarding triggers?
What makes people do this type of
thing? Children that don’t listen.
Children who are being potty trained.
Children who might wake up another
sibling in the house.
He then says at 9:48, he then
threw up on our bed. Amanda’s
response, nice. And then she says, strip
the bed and put what you can in the
washer, please. And he responds, okay,
at 10:02.
At 10:32:39 Amanda says, you
going with me to take him home?
What’s also occurring between
10:30 and 10:45? Christopher Payne is
outside in his yard hearing a bloodcurdling scream.

53a
Question mark number one and
question mark number two, these take
place, I submit, because [appellant]
hasn’t responded to her question, which
is, are you going to take—are you
coming with me to take him home?
He responds one hour and twelve
minutes later. And when you look at the
text messages, you look at the
timestamps and how quickly he
responds during the course of the day,
except for right now. One hour and
twelve minutes to respond, you going
home—you going with me to take him
home?
I thought you were taking him
tomorrow.
He inquires what time she’s
getting off.
She responds, we’re taking him
today, and I get off about 1:30.
And he says, at 12:35, that’s fine
because he’s acting like a fucking
asshole.
[Appellant] says, he ignores you like
he’s retarded. He’s thrown up twice,
and all he does is whine. Triggers?

54a
The Defendant, [appellant], says,
at 12:36:28, this is the last time.
At 1:14 in the afternoon
[appellant] sends a text message to
Amanda that says, this has been a day
from hell. He’s finally asleep on our
room.
And a few seconds later he says,
please get me a bottle. This has been a
day from hell.
And follows up 11 minutes later
with a please.
At 3:16:16 in the afternoon,
Sunday, May 3rd, 2015, [appellant]
sends a message to Amanda that says,
hey, I love you. Be careful.
We
know
from
Amanda’s
testimony that she was in the Chrysler
Pacifica at this time taking Luke back
to his home. Luke is unconscious. His
eyes are kind of open, and he’s snoring.
And [appellant], the Defendant, at
3:16:45 says, don’t tell them I bit him
back. LOL. Blame Landon.
And then says, I didn’t even bite
him hard, but, apparently, he bruises
easy.

55a
And Amanda, going along with it,
says, I told her he had bruises, so I’ll
just say they were already there.
Amanda tells [appellant] at
3:20:33, I only get on you because I
know you can do better.”
Appellant’s closing argument, among other
arguments, said appellant had no motive to kill Luke:
“There was certainly no motive here to kill. There’s
no reason. Even if you’re dealing with a troublesome
and whiny child, he’s going home in two hours.”
The State’s rebuttal closing argument
addressed the motive question as follows:
“[THE STATE]: [Defense counsel]
mentions the lack of motive. The motive
is and are the triggers were talked
about. Those triggers are in the text
messages.
And you can always tell the
strength or weakness of a case by what
the attorney doesn’t talk about. What
did [defense counsel] not talk about? He
didn’t talk about, essentially, the
confession of [appellant] in the text
messages. He called Luke Hill an
asshole. He tried to conspire with his
wife to cover up his assaultive behavior.
You can’t get around that. That’s why
[defense counsel] didn’t discuss it.”

56a
The prosecutor used one of the text messages
to frame the conclusion of his rebuttal closing
argument as follows:
“[THE STATE]: [Appellant] told his wife
at 12:36 on [May 3], this is the last time.
I am confident that when you take the
constellation of symptoms, when you
take the constellation of injuries, and
combine that with what you know is
impossible, then you will return a
verdict, and that verdict will tell
[appellant] that this is the last time.”
As indicated supra, the jury returned guilty
verdicts on all counts, the court imposed the life
sentence, to be served without benefit of parole, and
this timely appeal followed.
II.
Before this Court, appellant argues that the
trial court erred in admitting privileged marital
communications, i.e., the text messages between
appellant and his wife. He argues that
communications between spouses are presumed to
be confidential, and that a waiver of the privilege
will be found only in the clearest of circumstances.
This presumption of confidentiality, he argues, may
be rebutted only “by a showing that the
communication was not intended to be confidential,
or was made to, or in the presence of a third party.”
State v. Mazzone, 336 Md. 379, 384, 648 A.2d 978,
980 (1994) (internal citations omitted). He maintains
that in this case, the State presented no facts to

57a
rebut the presumption that the text messages were
privileged.
Appellant asks us to recognize as plain error
the opening statement of the State where the
prosecutor spoke to the jury in the voice of three year
old Luke Hill. He considers it a “golden rule”
argument in which “a prosecutor improperly appeals
to the passions of the jury, and asks jurors to place
themselves in the shoes of the victim.”
The State argues that the trial court exercised
its discretion properly in admitting into evidence
text messages sent by appellant to his wife’s
telephone. The State appears to present three
grounds to support the admission of the text
messages. First, appellant did not meet his burden of
establishing the element of “confidentiality” and,
therefore, he failed to demonstrate his entitlement to
the “narrowly construed” marital privilege. Because
testimonial privileges are not designed or intended
to facilitate the fact-finding process or to safeguard
its integrity, they are a disfavored departure from
the norm, and should be strictly construed.
Moreover, according to the State, any ambiguity or
close call with respect to whether a privilege applies
should be resolved against the privilege. Factually,
appellant sent texts to his wife’s cellphone while she
worked at a restaurant. By sending information over
the phone, over which he had no control, he ran the
risk that someone besides Amanda would retrieve
the message. Concluding, the State asserts that

58a
appellant failed to show he had a reasonable
expectation of confidentiality in the text messages. 5
Second, in the event appellant is arguing that
the admission of the text through appellant’s wife
violated
the
testimonial
spousal
privilege,
testimonial spousal privilege does not apply where
charges involve the abuse of a child under the age of
18. See Md. Code, Courts and Judicial Proceedings
Article, § 9-106(a)(1).
Third, the State maintains that by
communicating via text messaging, appellant
implicated a third party, i.e., his service provider,
Verizon. The State quotes from Verizon’s privacy
agreement, which contains a statement that
information may be shared pursuant to “subpoenas,
court orders or search warrants and as otherwise
authorized by law.”
The State asserts also that even if the
admission of the text messages was erroneous, any
error was harmless beyond a reasonable doubt. The
content of the messages does not contain a
confession to any of the charges. The State offered
more than enough other evidence to eliminate any
other suspect, including medical records and
eyewitness accounts that Luke was fine until
The State makes clear that its argument here is case and factspecific, and not that text messages can never convey
confidential marital communications. The State suggests that
the party asserting the privilege with respect to text messages
(footnote continued . . .) could generate evidence that the
recipient secured the phone by a passcode or set up the phone
to ensure text messages would not appear on the screen if the
phone was locked.

5

59a
Amanda left for work on May 3, testimony from a
neighbor who heard a blood-curdling scream come
from the house, and Amanda and Ms. Harmon’s
testimony about Luke’s behavior and appearance
once Amanda returned home from work. DNA
analysis and bruises on appellant’s knuckles pointed
towards appellant striking Luke. Appellant’s
cellmate testified appellant made statements that
were both consistent with the other evidence and
unlikely to be known to anyone but appellant. If
admitting the text messages was error, it was
harmless because the rest of the evidence was
overwhelming.
The State argues that this Court should not
review its opening statement for plain error.
Maryland has never reviewed a prosecutor’s opening
statement for plain error. This opening statement
was not improper, as the only limitation is not to
refer to facts that the State does not expect to prove
during the trial. The State responds to appellant’s
“golden rule” claim that this rhetorical device is not
a “golden rule” violation. “Golden rule” arguments
encourage jurors to consider their own interests in
deliberation rather than the evidence presented, and
the opening statement here confined itself to the
evidence. Appellant bears the burden to prove
material prejudice that requires plain error review,
which appellant has failed to even attempt to do.
III.
It is “within the sound discretion of the trial
court to determine the admissibility of evidence.”
Blair v. State, 130 Md. App. 571, 592, 747 A.2d 702,

60a
713 (2000). An abuse of discretion occurs when “no
reasonable person would take the view adopted by
the trial court, or when the court acts without
reference to any guiding rules or principles.” Brass
Metal Prods., Inc. v. E-J Enters., Inc., 189 Md. App.
310, 364, 984 A.2d 361, 393 (2009) (internal citations
omitted).
Judge Charles E. Moylan, Jr., writing for the
Court of Special Appeals in Ashford v. State, 147 Md.
App. 1, 65, 807 A.2d 732, 769 (2002), emphasized
that testimonial privileges such as the marital
privilege are disfavored, and explained the
significance of that status as follows:
“Keeping in the forefront of the mind
the appreciation that testimonial
privileges are disfavored, rather than
favored, and are to be strictly
construed,
rather
than
liberally
construed, is important because that
decided ‘tilt’ may well be dispositive in
close or ambiguous cases. As this Court
observed in Ellison v. State, 65 Md.
App. at 326–27, 500 A.2d [at 652
(1985)]:
‘[A] brief word is in order as to why it is
important for us to determine whether
testimonial privileges are in favor or
disfavor. In an otherwise close case for
the application of a testimonial
privilege, a case that could plausibly go
either way, the “tilt” to be taken by the
court is critically important. If

61a
testimonial privileges are determined to
be in favor, our “tilt” toward finding the
privilege applicable could well be
decisive in that direction. If, on the
other hand, testimonial privileges are
determined to be in disfavor, our “tilt”
toward
finding
the
privilege
inapplicable could well be decisive in
the other direction.’”
(Emphasis in original). The disfavored testimonial
privileges must be strictly construed and any
ambiguous claims of these privileges will tend to be
rejected.
The marital privilege is in fact two distinct
privileges: the privilege protecting confidential
marital communications and the privilege against
adverse spousal testimony. See Trammel v. United
States, 445 U.S. 40, 51, 100 S. Ct. 906, 913 (1980). In
this case, the adverse spousal privilege, one vested
in the witness spouse, was not claimed. At issue here
is the marital communication privilege, which
enables either spouse the right to preclude the
disclosure of any confidential communications
between the spouses. See United States v. Parker,
834 F.2d 408, 410–11 (4th Cir. 1987).
Under the common law, and Maryland law,
spouses enjoy a right, albeit limited, to protect the
confidentiality of some, but not all, marital
communications. Coleman v. State, 281 Md. 538, 541,
380 A.2d 49, 52 (1977); see also 8 Wigmore, Evidence,
§ 2336 (McNaughton rev. 1961). In Maryland the
marital privilege is found at § 9-105 of the Courts &

62a
Judicial
Proceedings
Article:
Confidential
communications between spouses. The statute
provides as follows: “One spouse is not competent to
disclose any confidential communication between the
spouses occurring during their marriage.” 6 Either
spouse can prevent the other from testifying as to
such confidential communications.
Private
discussions
and
exchanged
information between spouses are confidential and
protected by the privilege. Blau v. United States, 340
U.S. 332, 333, 71 S. Ct. 301, 302 (1951). 7 Marital
communications are presumed confidential, which
qualifies them for the privilege. State v. Enriquez,
327 Md. 365, 372, 609 A.2d 343, 346 (1992). This
presumption is rebuttable, however, when a party
shows that “the communication was not intended to
be confidential.” Id. If this presumption has been
thoroughly rebutted, the “burden of establishing the
element of confidentiality” falls on the claimant.
The statute has been interpreted by the Court of Appeals in
such a manner that the section “does not render a spouse
‘incompetent’ in any manner, but simply provides a privilege,
exercisable and waivable by the person who made the
confidential communication, to preclude the person’s spouse
from disclosing that communication through testimony.” Brown
v. State, 359 Md. 180, 202, 753 A.2d 84, 96 (2000).

6

Many jurisdictions recognize as an exception to the marital
privilege communications or exchanges of information (known
as the joint crime exception) that have to do with the
commission of a crime in which both spouses played a role. See,
e.g., United States v. Broome, 732 F.2d 363 (4th Cir. 1984).
Maryland has not adopted this exception. See Coleman v. State,
281 Md. 538, 545–47, 380 A.2d 49, 54–55 (1977) (noting that
the Maryland statute contains no such exception and the
privilege under this section applies where the confidential
communication is made in furtherance of a crime).

7

63a
Ashford, 147 Md. App. at 69, 807 A.2d at 771.
Because of the disfavor with which the courts look
upon the use of testimonial privileges at trial, “we
resolve an ambiguity against the privilege, rather
than in its favor.” Id. at 70, 807 A.2d at 772. The
presumption itself, however, is not ambiguous, but
evidence introduced to rebut the presumption and/or
subsequently establish confidentiality can lead to
ambiguity.
“Communications between husband and wife
occurring during the marriage are deemed
confidential if expressly made so, or if the subject is
such that the communicating spouse would probably
desire that the matter be kept secret, either because
its disclosure would be embarrassing or for some
other reason.” Coleman, 281 Md. at 542, 380 A.2d at
52; see 1 Kenneth S. Broun & Robert P. Mosteller,
McCormick on Evidence § 80 (2016). As to the
presumption of confidentiality, in Coleman, the
Court of Appeals noted that the nature of the
communication could indicate that it was intended to
remain confidential, such as “where . . . the marital
communication amounts to an admission or
confession of a crime; in such circumstances, the
courts have generally recognized the confidential
nature of the communication.” Id. at 544, 380 A.2d
at 53. The spouse claiming the privilege does not
have to initially establish the confidential nature of
the communication because it is presumed
confidential. Id. at 543, 380 A.2d at 52.
The circumstances of a given case can negate
this presumption of confidentiality. See, e.g., Pereira
v. United States, 347 U.S. 1, 6, 74 S. Ct. 358, 361

64a
(1954) (holding that the presence of a third party
renders communications non-confidential); Wolfle v.
United States, 291 U.S. 7, 14–17, 54 S. Ct. 279, 280–
81 (1934) (holding that the dictation of a letter to a
secretary
renders
the
communication
nonconfidential); 8 Wigmore, Evidence, § 2336
(McNaughton rev. 1961). The presumption is
rebutted where it is shown that the communication
was not intended to be confidential, or was made to,
or in the presence of a third party. Pereira, 347 U.S.
at 6, 74 S. Ct. at 361; Wolfle v. United States, 291
U.S. at 14–17, 54 S. Ct. at 280–81; Gutridge v. State,
236 Md. 514, 516, 204 A.2d 557, 559 (1964); Master v.
Master, 223 Md. 618, 623–24, 166 A.2d 251, 255
(1960); Metz v. State, 9 Md. App. 15, 19, 262 A.2d
331, 333 (1970). For example, the fact that a
husband knew that his wife could not read without
the assistance of a third party would rebut the
presumption that he intended a letter which he sent
to her to remain confidential. See Grulkey v. United
States, 394 F.2d 244, 246 (8th Cir. 1968); State v.
Fiddler, 57 Wash. 2d 815, 820, 360 P.2d 155, 157–58
(Wash. 1961). In another case, a husband left his
wife a message on their answering machine, but
because the evidence showed that other people lived
in their home and had access to the machine, the
message could not be intended as confidential
between just the spouses. Wong-Wing v. State, 156
Md. App. 597, 609–10, 847 A.2d 1206, 1213 (2004).
The text messages exchanged between
appellant
and
his
wife
were
marital
communications. Applying the presumption that
marital communications are privileged, they are
presumed to have been confidential. It is, therefore,

65a
incumbent upon the State to rebut that
presumption, and to show that the parties did not
intend the communication to have been confidential.
In the cases where the court admitted spousal
communications, the State presented facts (e.g., the
wife’s illiteracy, the location and use of the
answering machine) that rebutted the presumption
of confidentiality.
The State has not rebutted the presumption of
a confidential communication. Simply because the
communications were over a cell phone in the nature
of text messages does not rebut the presumption. 8
The State’s argument that any person could have
seen the messages is inadequate. Cell phones have
8 In a footnote, the State suggests that text messages implicate
the internet service provider as a third party to the
communication,
which
rebuts
the
presumption
of
confidentiality. Appellant consented to Verizon’s privacy
agreement, which authorizes disclosure of information
pursuant to “subpoenas, court orders or search warrants and as
otherwise authorized by law.”

This Court has not ruled directly on this issue, and
neither have most other jurisdictions. The few courts that touch
on this concern have not held that service providers compromise
otherwise confidential electronic communications. The United
States Court of Appeals for the Sixth Circuit held that emailers
have a reasonable expectation of privacy even in emails “that
are stored with, or sent or received through a commercial
[internet service provider].” United States v. Warshak, 631 F.
3d 266, 288 (6th Cir. 2010). Other courts have found emails
presumptively confidential, thereby not addressing confidential
status. See Reeves v. State, 664 S.E. 2d 207, 210 (Ga. 2008); Fire
Truck, Inc. v Emergency One, Inc., 134 P. 3d 570, 572–75 (Colo.
App. 2006). In accord with these opinions, we conclude that
Verizon’s provision of service does not rebut the confidentiality
of appellant’s text messages to his wife.

66a
mechanisms to lock access to texts. Especially given
the inculpatory nature of the conversation between
appellant and his wife, it was incumbent upon the
State to offer some facts and circumstances to rebut
the presumption of confidentiality, which the State
failed to do. We hold that the trial court abused its
discretion in admitting the text messages because
they were confidential marital communications.
The admission of the text messages was not,
as the State claims, harmless error. While a
significant amount of other evidence tied appellant
to Luke’s injuries, the error cannot be harmless
“unless a reviewing court, upon its own independent
review of the record, is able to declare a belief,
beyond a reasonable doubt, that the error in no way
influenced the verdict.” Mazzone, 336 Md. at 400,
648 A.2d at 988. In Mazzone, the erroneouslyadmitted communications potentially led the jury to
inferences that supported the State’s case. Id. at
400–01, 648 A.2d at 988. In State v. Enriquez, 327
Md. 365, 609 A.2d 343 (1992), a privileged marital
communication was introduced “to show a
consciousness of guilt.” Id. at 374, 609 A.2d at 347.
Each of these introductions was ruled not harmless.
In this case, the State placed great emphasis
on the text messages in the trial. The prosecution
devoted fifteen percent of its closing argument to
repeating the text messages, and claimed in its
rebuttal that “[t]he motive is . . . the triggers
[, which] are in the text messages.” While motive is
not an element of the crimes for which appellant was
convicted, a jury may consider motive in evaluating
the facts and circumstances of the events. Clearly,

67a
the prosecutor thought that motive would assist the
jury in evaluating the evidence, as reflected in his
closing argument. We cannot say, beyond a
reasonable doubt, that the text messages did not
contribute to the verdict.
We hold that the inadmissible marital
communications were not harmless beyond a
reasonable doubt, and constitute reversible error.
JUDGMENTS OF THE CIRCUIT
COURT
FOR
WORCESTER
COUNTY
REVERSED.
CASE
REMANDED TO THAT COURT
FOR FURTHER PROCEEDINGS
CONSISTENT
WITH
THIS
OPINION AND A NEW TRIAL.
COSTS
TO
BE
PAID
BY
WORCESTER COUNTY.

68a
U.S. CONST. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.

69a
U.S. CONST. amend. V
No person shall be held to answer for a capital, or
otherwise
infamous
crime,
unless
on
a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property,
without due process of law; nor shall private
property be taken for public use, without just
compensation.

70a
U.S. CONST. amend. VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained by
law, and to be informed of the nature and cause of
the accusation; to be confronted with the
witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defence.

71a
U.S. CONST. amend. XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and of
the State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned
among the several States according to their
respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed.
But when the right to vote at any election for the
choice of electors for President and Vice President
of the United States, Representatives in Congress,
the Executive and Judicial officers of a State, or
the members of the Legislature thereof, is denied
to any of the male inhabitants of such State, being
twenty-one years of age, and citizens of the United
States, or in any way abridged, except for
participation in rebellion, or other crime, the basis
of representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such State.
Section 3. No person shall be a Senator or
Representative in Congress, or elector of
President and Vice President, or hold any office,
civil or military, under the United States, or

72a
under any State, who, having previously taken an
oath, as a member of Congress, or as an officer of
the United States, or as a member of any State
legislature, or as an executive or judicial officer of
any State, to support the Constitution of the
United States, shall have engaged in insurrection
or rebellion against the same, or given aid or
comfort to the enemies thereof. But Congress may
by a vote of two-thirds of each House, remove
such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion,
shall not be questioned. But neither the United
States nor any State shall assume or pay any debt
or obligation incurred in aid of insurrection or
rebellion against the United States, or any claim
for the loss or emancipation of any slave; but all
such debts, obligations and claims shall be held
illegal and void.
Section 5. The Congress shall have power to
enforce, by appropriate legislation, the provisions
of this article.

73a
28 U.S.C. § 1257
State courts; certiorari
(a) Final judgments or decrees rendered by the
highest court of a State in which a decision could
be had, may be reviewed by the Supreme Court
by writ of certiorari where the validity of a
treaty or statute of the United States is drawn
in question or where the validity of a statute of
any State is drawn in question on the ground of
its being repugnant to the Constitution, treaties,
or laws of the United States, or where any title,
right, privilege, or immunity is specially set up
or claimed under the Constitution or the treaties
or statutes of, or any commission held or
authority exercised under, the United States.
(b) For the purposes of this section, the term
“highest court of a State” includes the District of
Columbia Court of Appeals.

74a
34 U.S.C. § 20341
Child abuse reporting
Effective: February 14, 2018
(a) In general
(1) Covered professionals
A person who, while engaged in a professional
capacity or activity described in subsection (b) on
Federal land or in a federally operated (or
contracted) facility, learns of facts that give
reason to suspect that a child has suffered an
incident of child abuse, shall as soon as possible
make a report of the suspected abuse to the
agency designated under subsection (d) and to
the agency or agencies provided for in subsection
(e), if applicable.
(2) Covered individuals
A covered individual who learns of facts that give
reason to suspect that a child has suffered an
incident of child abuse, including sexual abuse,
shall as soon as possible make a report of the
suspected abuse to the agency designated by the
Attorney General under subsection (d).
(b) Covered professionals
Persons engaged in the following professions and
activities are subject to the requirements of
subsection (a)(1):

75a
(1) Physicians, dentists, medical residents or
interns, hospital personnel and administrators,
nurses, health care practitioners, chiropractors,
osteopaths,
pharmacists,
optometrists,
podiatrists, emergency medical technicians,
ambulance drivers, undertakers, coroners,
medical examiners, alcohol or drug treatment
personnel, and persons performing a healing role
or practicing the healing arts.
(2) Psychologists, psychiatrists,
health professionals.

and

mental

(3) Social workers, licensed or unlicensed
marriage, family, and individual counselors.
(4) Teachers, teacher's aides or assistants, school
counselors and guidance personnel, school
officials, and school administrators.
(5) Child care workers and administrators.
(6) Law
enforcement
personnel,
probation
officers, criminal prosecutors, and juvenile
rehabilitation or detention facility employees.
(7) Foster parents.
(8) Commercial film and photo processors.
(c) Definitions
For the purposes of this section--

76a
(1)
the term “child abuse” means the physical
or mental injury, sexual abuse or exploitation, or
negligent treatment of a child;
(2)
the term “physical injury” includes but is
not limited to lacerations, fractured bones, burns,
internal injuries, severe bruising or serious bodily
harm;
(3)
the term “mental injury” means harm to a
child’s psychological or intellectual functioning
which may be exhibited by severe anxiety,
depression, withdrawal or outward aggressive
behavior, or a combination of those behaviors,
which may be demonstrated by a change in
behavior, emotional response or cognition;
(4)
the term “sexual abuse” includes the
employment, use, persuasion, inducement,
enticement, or coercion of a child to engage in, or
assist another person to engage in, sexually
explicit conduct or the rape, molestation,
prostitution, or other form of sexual exploitation
of children, or incest with children;
(5)
the term “sexually explicit conduct” means
actual or simulated-(A) sexual intercourse, including sexual
contact in the manner of genital-genital, oralgenital, anal-genital, or oral- anal contact,
whether between persons of the same or of
opposite sex; sexual contact means the
intentional touching, either directly or
through clothing, of the genitalia, anus, groin,

77a
breast, inner thigh, or buttocks of any person
with an intent to abuse, humiliate, harass,
degrade, or arouse or gratify sexual desire of
any person;
(B)

bestiality;

(C)

masturbation;

(D) lascivious exhibition of the genitals or
pubic area of a person or animal; or
(E)

sadistic or masochistic abuse;

(6)
the term “exploitation” means
pornography or child prostitution;

child

(7)
the term “negligent treatment” means the
failure to provide, for reasons other than poverty,
adequate food, clothing, shelter, or medical care
so as to seriously endanger the physical health of
the child;
(8)
the term “child abuse” shall not include
discipline administered by a parent or legal
guardian to his or her child provided it is
reasonable in manner and moderate in degree
and otherwise does not constitute cruelty;
(9)
the term “covered individual” means an
adult who is authorized, by a national governing
body, a member of a national governing body, or
an amateur sports organization that participates
in interstate or international amateur athletic
competition, to interact with a minor or amateur

78a
athlete at an amateur sports organization facility
or at any event sanctioned by a national
governing body, a member of a national
governing body, or such an amateur sports
organization;
(10) the term “event” includes travel, lodging,
practice, competition, and health or medical
treatment;
(11) the terms “amateur athlete”, “amateur
athletic
competition”,
“amateur
sports
organization”, “international amateur athletic
competition”, and “national governing body” have
the meanings given the terms in section
220501(b) of Title 36; and
(12) the term “as soon as possible” means
within a 24-hour period.
(d) Agency designated to receive report and
action to be taken
For all Federal lands and all federally operated (or
contracted) facilities in which children are cared for
or reside and for all covered individuals, the
Attorney General shall designate an agency to
receive and investigate the reports described in
subsection (a). By formal written agreement, the
designated agency may be a non-Federal agency.
When such reports are received by social services or
health care agencies, and involve allegations of
sexual abuse, serious physical injury, or lifethreatening neglect of a child, there shall be an
immediate referral of the report to a law

79a
enforcement agency with authority to take
emergency action to protect the child. All reports
received shall be promptly investigated, and
whenever appropriate, investigations shall be
conducted jointly by social services and law
enforcement personnel, with a view toward avoiding
unnecessary multiple interviews with the child.
(e) Reporters and recipient of report involving
children and homes of members of the
Armed Forces
(1) Recipients of reports
In the case of an incident described in subsection
(a) involving a child in the family or home of
member of the Armed Forces (regardless of
whether the incident occurred on or off a military
installation), the report required by subsection (a)
shall be made to the appropriate child welfare
services agency or agencies of the State in which
the child resides. The Attorney General, the
Secretary of Defense, and the Secretary of
Homeland Security (with respect to the Coast
Guard when it is not operating as a service in the
Navy) shall jointly, in consultation with the chief
executive officers of the States, designate the
child welfare service agencies of the States that
are appropriate recipients of reports pursuant to
this subsection. Any report on an incident
pursuant to this subsection is in addition to any
other report on the incident pursuant to this
section.

80a
(2) Makers of reports
For purposes of the making of reports under this
section pursuant to this subsection, the persons
engaged in professions and activities described in
subsection (b) shall include members of the
Armed Forces who are engaged in such
professions and activities for members of the
Armed Forces and their dependents.
(f) Reporting form
In every federally operated (or contracted) facility,
on all Federal lands, and for all covered individuals,
a standard written reporting form, with instructions,
shall be disseminated to all mandated reporter
groups. Use of the form shall be encouraged, but its
use shall not take the place of the immediate making
of oral reports, telephonically or otherwise, when
circumstances dictate.
(g) Immunity for good faith reporting and
associated actions
All persons who, acting in good faith, make a report
by subsection (a), or otherwise provide information
or assistance in connection with a report,
investigation, or legal intervention pursuant to a
report, shall be immune from civil and criminal
liability arising out of such actions. There shall be a
presumption that any such persons acted in good
faith. If a person is sued because of the person's
performance of one of the above functions, and the
defendant prevails in the litigation, the court may
order that the plaintiff pay the defendant's legal

81a
expenses. Immunity shall not be accorded to persons
acting in bad faith.
(h) Training of prospective reporters
All individuals in the occupations listed in
subsection (b)(1) who work on Federal lands, or are
employed in federally operated (or contracted)
facilities, and all covered individuals, shall receive
periodic training in the obligation to report, as well
as in the identification of abused and neglected
children.
(i) Rule of construction
Nothing in this section shall be construed to require
a victim of child abuse to self-report the abuse.

82a

MD Code, Family Law, § 5-705
Reports of suspected abuse or neglect;
other persons
Effective: October 1, 2011
Persons required to notify authorities and
report suspected instances of abuse or neglect;
exceptions
(a)(1) Except as provided in paragraphs (2) and (3)
of this subsection, notwithstanding any other
provision of law, including a law on privileged
communications, a person in this State other than
a health practitioner, police officer, or educator or
human service worker who has reason to believe
that a child has been subjected to abuse or neglect
shall notify the local department or the
appropriate law enforcement agency.
(2) A person is not required to provide notice
under paragraph (1) of this subsection:
(i) in violation of the privilege described
under § 9-108 of the Courts Article;
(ii) if the notice would disclose matter
communicated in confidence by a client
to the client's attorney or other
information
relating
to
the
representation of the client; or
(iii) in violation of any constitutional
right to assistance of counsel.

83a

(3) A minister of the gospel, clergyman, or
priest of an established church of any
denomination is not required
to provide
notice under paragraph (1) of this
subsection if the notice would disclose
matter in relation to any communication
described in § 9-111 of the Courts Article
and:
(i) the communication was made to the
minister, clergyman, or priest in a
professional character in the course of
discipline enjoined by the church to
which the minister, clergyman, or priest
belongs; and
(ii) the minister, clergyman, or priest is
bound to maintain the confidentiality of
that communication under canon law,
church doctrine, or practice.
Agency to notify the other agency
(b)(1) An agency to which a report of suspected
abuse or neglect is made under subsection (a) of
this section shall immediately notify the other
agency.
(2) This subsection does not prohibit a local
department
and
an
appropriate
law
enforcement agency from agreeing to
cooperative arrangements.

84a

Oral or written report
(c) A report made under subsection (a) of this
section may be oral or in writing.
Contents of report
(d)(1) To the extent possible, a report made under
subsection (a) of this section shall include the
information required by § 5-704(c) of this subtitle.
(2) A report made under subsection (a) of this
section shall be regarded as a report within the
provisions of this subtitle, whether or not the
report contains all of the information required
by § 5-704(c) of this subtitle.

85a

2013 MARYLAND CODE COURTS AND
JUDICIAL PROCEEDINGS
§ 9-105 - TESTIMONY

BY SPOUSES

-- CONFIDENTIAL

COMMUNICATIONS OCCURRING DURING MARRIAGE

One spouse is not competent to disclose any
confidential communication between the spouses
occurring during their marriage.

